Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    MEDICARE COMPLIANCE
          REVIEW OF
INTERMOUNTAIN MEDICAL CENTER
     FOR CALENDAR YEARS
        2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      October 2012
                                                      A-07-12-01108
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

The Intermountain Medical Center (the Hospital) has 420 beds and is located in Murray, Utah.
Medicare paid the Hospital approximately $181 million for 16,994 inpatient and 89,304
outpatient claims for services provided to Medicare beneficiaries during calendar years (CY)
2009 and 2010 based on CMS’s National Claims History data.

Our audit covered $2,504,726 in Medicare payments to the Hospital for 165 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 62
inpatient and 103 outpatient claims with dates of service in CYs 2009 and 2010 (2 of these 165
claims involved replacement medical devices and had dates of service in CY 2011).

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 99 of the 165 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 66 claims, resulting in net overpayments totaling
$198,141 for CYs 2009 through 2011. Specifically, 13 inpatient claims had billing errors that
resulted in overpayments totaling $109,016, and 53 outpatient claims had billing errors that
resulted in net overpayments totaling $89,125. These errors occurred primarily because the
Hospital did not have adequate controls to prevent incorrect billing of Medicare claims or did not
fully understand the Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $198,141, consisting of $109,016 in overpayments for
       the 13 incorrectly billed inpatient claims and $89,125 in net overpayments for the 53
       incorrectly billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with both of our
recommendations. The Hospital stated that it has refunded the overpayments and described
corrective actions that it has taken to ensure compliance with Medicare requirements.

The Hospital’s comments appear in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Intermountain Medical Center .......................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................4
          Inpatient Claims Paid in Excess of Charges ..................................................................5
          Inpatient Transfers .........................................................................................................5
          Inpatient Claims Billed with High Severity Level Diagnosis-Related Group Codes ....6
          Inpatient Manufacturer Credits for Replaced Medical Devices ....................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Outpatient Claims Billed for Lupron Injections ............................................................7
          Outpatient Manufacturer Credits for Replaced Medical Devices ..................................7
          Outpatient Claims Paid in Excess of Charges................................................................8

      RECOMMENDATIONS ......................................................................................................8

      AUDITEE COMMENTS…...................................................................................................9

APPENDIX

      AUDITEE COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.

1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis of claims. Examples of the types of claims at risk for noncompliance included the
following:

    •   inpatient claims paid in excess of charges,

    •   inpatient transfers,

    •   inpatient claims billed with high severity level DRGs,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims billed for Lupron injections,

    •   outpatient claims paid in excess of charges,

    •   outpatient claims billed with modifiers, and

    •   outpatient claims billed with Doxorubicin Hydrochloride.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” In addition, section 1833(e)
of the Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Intermountain Medical Center

The Intermountain Medical Center (the Hospital) has 420 beds and is located in Murray, Utah.
Medicare paid the Hospital approximately $181 million for 16,994 inpatient and 89,304

                                                   2
outpatient claims for services provided to Medicare beneficiaries during calendar years (CY)
2009 and 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,504,726 in Medicare payments to the Hospital for 165 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 62
inpatient and 103 outpatient claims with dates of service in CYs 2009 and 2010. Two of the 165
claims (involving replacement medical devices) had dates of service in CY 2011.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
did not include a focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during March 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    held discussions with CMS and Medicare contractor officials to gain an understanding of
        Medicare requirements for billing inpatient and outpatient claims;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;




                                                 3
   •   obtained information on known credits for replacement cardiac medical devices from
       selected device manufacturers for CYs 2009 through 2011;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 165 claims (62 inpatient and 103 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials on June 1, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 99 of the 165 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 66 claims, resulting in net overpayments totaling
$198,141 for CYs 2009 through 2011. Specifically, 13 inpatient claims had billing errors that
resulted in overpayments totaling $109,016, and 53 outpatient claims had billing errors that
resulted in net overpayments totaling $89,125. These errors occurred primarily because the
Hospital did not have adequate controls to prevent incorrect billing of Medicare claims or did not
fully understand the Medicare billing requirements.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 13 of the 62 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $109,016.

                                                4
Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” The Manual, chapter 3,
section 10, states: “The hospital may bill only for services provided.” In addition, the Manual,
chapter 1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must
be completed accurately.”

For 3 out of 11 sampled claims, the Hospital incorrectly billed Medicare for claims in which the
payments exceeded the charges. Specifically, for the three claims, the Hospital billed Medicare
with incorrect diagnosis codes that resulted in the assignment of incorrect DRG codes. The
Hospital attributed these errors to human error and to the fact that its existing quality control
system did not identify every error. As a result of these errors, the Hospital received
overpayments totaling $41,717.

Inpatient Transfers

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when (1) the patient’s discharge is assigned to one of the qualifying
DRGs, (2) the discharge is to home under a written plan of care for the provision of home health
services from a home health agency, and (3) those services begin within 3 days after the date of
discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For three out of six sampled transfer claims, the Hospital incorrectly billed Medicare discharges
that should have been billed as transfers. For one of these claims, the Hospital coded the
discharge status as “patient discharged to a skilled nursing facility” instead of “patient
transferred to another acute care hospital.” For another one of these claims, the Hospital coded
the discharge status as “patient discharged to home” instead of “patient discharged to home
under a written plan of care for the provision of home health services.” The Hospital attributed
these errors to human error and stated that its existing quality control system did not identify
every error.

For the remaining claim that was in error, the Hospital coded the discharge status as “patient left
against medical advice” instead of “patient discharged to home under a written plan of care for
the provision of home health services.” The Hospital stated that this error occurred because of a
transmission error that occurred when the Hospital submitted the claim to the Medicare
contractor. Specifically, the Hospital said that it entered the discharge status correctly in its
computerized system and added that it did not understand how the Medicare contractor received
the incorrect discharge status.



                                                 5
As a result of these errors, the Hospital received overpayments totaling $30,384.

Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” The Manual, chapter 3,
section 10, states: “The hospital may bill only for services provided.” In addition, the Manual,
chapter 1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must
be completed accurately.”

For 4 out of 41 sampled claims with high severity level DRG codes, the Hospital billed Medicare
with incorrect diagnosis and/or procedure codes that resulted in the assignment of incorrect DRG
codes. The Hospital stated that these errors occurred due to human error and because its existing
quality control system did not identify every error. As a result of these errors, the Hospital
received overpayments totaling $24,415.

Inpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of a device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8,
states that to bill correctly for a replacement device that was provided with a credit, the hospital
must code its Medicare claims with a combination of condition code 49 or 50 along with value
code “FD.”

For three out of four sampled claims, the Hospital received a reportable medical device credit
from a manufacturer but did not adjust its inpatient claims with the proper value and condition
codes to reduce payments as required. These errors occurred because the Hospital did not have
adequate controls to report the appropriate value codes in order to accurately reflect credits it had
received from manufacturers. The Hospital attributed the inadequacy of the controls to the
complexities of the relevant regulations as well as the many possible recall and warranty
scenarios. Specifically, the Hospital stated that warranty contract terms are, in specific
circumstances, difficult to interpret and can result in disputes regarding the appropriateness of a
credit to the Hospital. As a result of these errors, the Hospital received overpayments totaling
$12,500.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 53 of the 103 sampled outpatient claims that we
reviewed. These errors resulted in net overpayments totaling $89,125.




                                                  6
Outpatient Claims Billed for Lupron Injections

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” The Manual, chapter 17, section 90.2.A, states:
“It is … of great importance that hospitals billing for [drugs] make certain that the reported units
of service of the reported HCPCS code are consistent with the quantity of a drug … that was
used in the care of the patient.” If the provider is billing for a drug, according to chapter 17,
section 70, of the Manual, “[w]here HCPCS is required, units are entered in multiples of the
units shown in the HCPCS narrative description. For example, if the description for the code is
50 mg, and 200 mg are provided, units are shown as 4 ….”

The Food and Drug Administration (FDA) identifies and reports drug products with a universally
used unique, three-segment number called the national drug code (NDC). Each quarter, CMS
provides Medicare contractors with an updated listing that cross-references the NDC to the drug
name, billing units, and HCPCS code.

Lupron is a drug commonly used to treat hormone-dependent cancers. The FDA approved
Lupron for the treatment of disorders relating to the uterus and for the treatment of prostatic
cancer. According to the NDCs in effect during our audit period, Lupron was available for the
treatment of: (1) disorders relating to the uterus, in doses of 3.75 mg once a month or 11.5 mg
once every 3 months, and was linked to HCPCS code J1950; and (2) prostatic cancer, in doses of
7.5 mg once a month, 22.5 mg once every 3 months, or 30 mg once every 4 months, and was
linked to HCPCS code J9217.

For 42 out of 45 sampled claims, the Hospital incorrectly billed Medicare for Lupron injections.
For 35 of the 42 claims that were in error, the Hospital billed Medicare using HCPCS code J1950
when its documentation showed that according to administered dosage, the Hospital should have
billed Medicare using HCPCS code J9217. For six of the other seven claims that were in error,
the Hospital billed Medicare using the correct HCPCS code (J9217) but with the wrong number
of units of Lupron administered. For the remaining claim, the Hospital did not have
documentation supporting the claim for Lupron. The Hospital stated that these errors occurred
primarily due to programming problems in its pharmacy clinical information system. The
Hospital stated that it had incorrectly programmed its computerized system to assign HCPCS
code J1950 instead of HCPCS code J9217 for prostatic cancer diagnoses. In addition, the
Hospital had computerized edits that assigned the wrong number of units of Lupron administered
to the HCPCS code J9217. As a result of these errors, the Hospital received overpayments
totaling $86,226. 3

Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.
3
    The Hospital indicated that there may be some allowable costs for related drug administration services.

                                                            7
CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and to reduce the charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device.

For one out of four sampled claims, the Hospital received a full credit for a replaced medical
device but did not report the “FB” modifier or reduced charges on its claim. This error occurred
because the Hospital did not have adequate controls to report the appropriate modifiers or reduce
charges on its claims. The Hospital attributed the inadequacy of the controls to the complexities
of the relevant regulations as well as the many possible recall and warranty scenarios.
Specifically, the Hospital stated that warranty contract terms are, in specific circumstances,
difficult to interpret and can result in disputes regarding the appropriateness of a credit to the
Hospital. As a result of this error, the Hospital received overpayments totaling $4,514.

Outpatient Claims Paid in Excess of Charges

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Section 1862(a)(1)(A) of the
Act states that Medicare payments may not be made for items and services that “… are not
reasonable and necessary for the diagnosis or treatment of illness or injury or to improve the
functioning of a malformed body member.” Federal regulations (42 CFR § 410.32) state that
diagnostic tests must be ordered by the physician who is treating the beneficiary. Tests not
ordered by the physician are considered not reasonable or necessary. Additionally, the Manual,
chapter 1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must
be completed accurately.”

For 10 out of 36 sampled claims, the Hospital incorrectly billed Medicare for claims in which the
payments exceeded the charges. These errors included six claims with the wrong HCPCS code
and two claims that lacked sufficient documentation to indicate that the diagnostic services were
ordered by a physician. The errors also included two claims for which the Hospital did not have
documentation supporting the HCPCS code billed and one claim that lacked the required
modifiers reflecting the work performed for bilateral procedures. (One of the claims had two
errors.) The Hospital stated that these errors occurred due to human error and because its
existing quality control system did not identify every error. As a result of these errors, the
Hospital received net underpayments totaling $1,615.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $198,141, consisting of $109,016 in overpayments for
       the 13 incorrectly billed inpatient claims and $89,125 in net overpayments for the 53
       incorrectly billed outpatient claims, and



                                                8
   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with both of our
recommendations. The Hospital stated that it has refunded the overpayments and described
corrective actions that it has taken to ensure compliance with Medicare requirements.

The Hospital’s comments appear in their entirety as the Appendix.




                                               9
APPENDIX
                                                                                                        Page 1 of 2


                               APPENDIX: AUDITEE COMMENTS

 'if~ Intermountain·
~¥r Healthcare
    36 South State Street
    Salt Lake City, UT 84111
    801.442.2000


    July 30, 2012

    Mr. Patrick J. Cogley
    Regional inspector General for Audit Services
    Department of Health and Human Services
    Office of Audit Services, Region VIT
    601 East l21h Street, Room 0429
    Kansas City, MO 64106

    Re: Report Number: A-07-12-01 108

    Dear Mr. Cogley:

    This letter is in response to the U.S. Department of Health and Human Services, Office of
    Inspector General (OIG), draft report entitled Medicare Compliance Review of Intermountain
    Medical Center for Calendar Years 2009 and 2010, dated July 25,2012.

    The Office oflnspector General audit covered $2,504,726 in Medicare payments for the 165
    claims (62 inpatient and 103 outpatient claims). We understand that these claims were
    judgmentally selected by the OIG as potentially at risk for billing errors. As a result of the
    detailed review, the OlG identified 66 claims with billing errors, totaling $198, I 41 in net
    overpayments for CYs 2009 through 2011.

    Intermountain Medical Center has reviewed the findings and concurs with the recommendations
    noted in the draft report. The OIG recommendations and Intermountain Medical Center's
    statements of concurrence are set forth below:

    1. The OlG recommends Intermountain Medical Center rejimd to the Medicare contractor
       $198,141, consisting of$109, 016 in overpayments for the 13 incorrectly billed inpatient
       claims and $89, 125 in net overpayments for the 53 incorrectly billed outpatient claims.

        Intermountain Medical Center concurs with the recommendation and has refunded the
        $198,141 in overpayments.

   2. The OIG recommends Intermountain Medical Center strengthen controls to ensure full
      compliance with Medicare requirements.

        Intermountain Medical Center takes the OIG audit findings and recommendations seriously
        as we continually strive to be compliant in all coding and billing requirements. We continue
        to further develop our internal controls, which includes providing additional education to
        coding and billing staff and creating additional edits as part of our own internal corrective
        action plans. Similar to the OIG Medicare Compliance Audit, we audit on specific high risk
                                                                                                    Page 2 of 2






        We also engage in less focused, random audits with the goal to routinely review a
   sample of claims across all coders in order to better ensure ongoing quality and accuracy.

Intermountain Medical Center appreciates the opportunity to respond to the findings of this OIG
audit. Intermountain Medical Center's goal is to ensure our inpatient and outpatient claims are
submitted timely and accurately and are in compliance with Medicare regulations and guidance
through continued improvement of internal c.ontrols.

If you like additional information on the specific corrective actions that have been completed or
are in progress for each issue, please contact me at 801.442.1502.




    ie Draper
Vice President of Business Ethics and Compliance
Intermountain Healthcare
